 DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General



    Review of Vulnerabilities and Potential
      Abuses of the L-1 Visa Program




    Office of Inspections and Special Reviews


OIG-06-22                          January 2006
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                              Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports as part of our oversight
responsibilities to promote economy, effectiveness, and efficiency within the department.

This report assesses vulnerabilities and potential abuses of the L-1 intra-company transferee
nonimmigrant visa program. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Contents


  Executive Summary ....................................................................................................................... 1

  Background .................................................................................................................................... 2

  Results of Inspection...................................................................................................................... 5

    Adjudicators Need Additional Information To Verify Managerial Status ............................. 6
    Definition of the Term “Specialized Knowledge” May Not Be Sufficiently Restrictive ....... 7
    Adjudicators Need Additional Information To Verify a Foreign Company's Legitimacy .... 13
    Recommendations................................................................................................................... 16
  Management Comments and OIG Analysis ................................................................................ 16


Appendices
  Appendix A: Purpose, Scope, and Methodology ......................................................................... 20
  Appendix B: Relevant Sections of the Immigration and Nationality Act ................................... 21
  Appendix C: USCIS Adjudicator's Field Manual, App 32-1, Specialized Knowledge ............... 23
  Appendix D: The Consular Survey............................................................................................... 26
  Appendix E: Management Response to Draft Report .................................................................. 28
  Appendix F: Department of State Response to Draft Report ...................................................... 36
  Appendix G: Major Contributors to This Report ......................................................................... 38
  Appendix H: Report Distribution ................................................................................................. 39


Abbreviations
  CA                    Bureau of Consular Affairs, Department of State
  DHS                   Department of Homeland Security
  DOS                   Department of State
  DS                    Bureau of Diplomatic Security, Department of State
  FDNS                  USCIS Office of Fraud Detection and National Security
  ICE                   Immigration and Customs Enforcement
  IT                    Information Technology
  INA                   Immigration and Nationality Act
  INS                   Immigration and Naturalization Service
  LCA                   Labor Condition Application
  OIG                   Office of Inspector General
  RFE                   Request for Evidence
  USCIS                 U.S. Citizenship and Immigration Services




                                                         Draft Report
                            Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                      Section 415 of the Consolidated Appropriations Act of 2005, Pub. L. 108-447,
                      requires that the Office of Inspector General (OIG) examine the vulnerabilities
                      and potential abuses in the L-1 visa program.1 The L-1 nonimmigrant visa is one
                      of several temporary worker visa classifications.

                      We interviewed program managers in Washington, DC, and adjudicators and their
                      supervisors at one of the four service centers that process petitions. With the
                      assistance of the Bureau of Consular Affairs (CA) of the Department of State
                      (DOS), we surveyed experienced consular professionals at 20 of the largest L-visa
                      issuing posts. We also visited the Kentucky Consular Center's Fraud Prevention
                      Office and interviewed employees there.

                      The L-1 program is vulnerable in several respects. First, the program allows for
                      the transfer of managers and executives, but adjudicators often find it difficult to
                      be confident that a firm truly intends using an imported worker in such a capacity.
                      Second, the program allows for the transfer of workers with “specialized
                      knowledge,” but the term is so broadly defined that adjudicators believe they have
                      little choice but to approve almost all petitions. Third, the transfer of L-1 workers
                      requires that the petitioning firm is doing business abroad, but adjudicators in the
                      United States have little ability to evaluate the substantiality of the foreign
                      operation. Fourth, the program encompasses petitioners who do not yet have, but
                      are merely are in the process of establishing, their first U.S. office, and it also
                      permits petitioners to transfer themselves to the United States. These two
                      provisions, separately and in combination, represent "windows of opportunity" for
                      some of the abuse that appears to be occurring.

                      Our report contains three recommendations directed to the Department of
                      Homeland Security (DHS) Bureau of Citizenship and Immigration Services
                      (USCIS). Other vulnerabilities can only be reduced through legislative action to
                      redefine the category.




1
 Division J, Title IV, Subtitle A of the act (sections 411-417) is also cited as "The L-1 Visa (Intracompany Transferee)
Reform Act of 2004."

                          Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                         Page 1
Background
                     The L classification, which originated with the 1970 amendments to the
                     Immigration and Nationality Act (INA),2 was designed to facilitate the temporary
                     transfer of foreign nationals' management, executive, and specialized knowledge
                     skills to the United States to continue employment with an office of the same
                     employer, its parent, branch, subsidiary, or affiliate.3 The Immigration Act of
                     1990 (IMMACT) made several modifications to the existing L category.4

                          •   IMMACT changed the definition of "manager" in the INA to include
                              mangers of a “department, subdivision, function, or component of the
                              organization”5 or those managers that manage an “essential function”6
                              within the company.
                          •   IMMACT removed L nonimmigrants from those categories being
                              “presumed to be an immigrant.”7 L aliens are specifically excluded from
                              the intending immigrant presumption of section 214(b) of the INA and are,
                              furthermore, not required to have a residence abroad which they have no
                              intention of abandoning. In addition, INA 214(h) provides that an alien
                              who has sought permanent residence in the United States is not precluded
                              from obtaining an L nonimmigrant visa or otherwise obtaining or
                              maintaining that status.8
                          •   IMMACT specified new limitations on the period of stay for L visa
                              holders: seven years for executives/managers9 and five years for
                              specialized knowledge personnel.10
                          •   IMMACT modified the definition of “affiliate” to include the international
                              partnership agreements used by international accounting firms11 and
                              mandated a “blanket” petition process to accelerate the admission of
                              individual L nonimmigrants.12
                          •   IMMACT also modified the requirement that the beneficiary have been
                              employed by the petitioner for at least one year immediately prior to the
                              submission of the petition. The new, less restrictive requirement to
                              qualify an L-1 employee was any one year of the prior three.13


2
  See INA § 101(a)(15)(L), 8 U.S.C. § 1101(a)(15)(L), as added by Pub. L. No. 91-225, Sec.1(b), 84 Stat.116.
3
  USCIS Adjudicator's Field Manual, Chapter 32.
4
  See Pub. L. No. 101-649.
5
  See INA § 101(a)(44)(i), 8 U.S.C. § 1101(a)(44)(A)(i), as added by Pub. L. No. 101-649 Sec. 123.
6
  See INA § 101(a)(44)(ii), 8 U.S.C. § 1101(a)(44)(A)(ii), as added by Pub. L. No. 101-649 Sec. 123.
7
  See INA § 214(b), 8 U.S.C. § 1184(b), as added by Pub. L. No. 101-649 Sec. 205(b).
8
   U.S. Department of State Foreign Affairs Manual, Volume 9, section 41.54, note 4.
9
  See INA § 214(c)(2)(D)(i), 8 U.S.C. § 1184(c)(2)(D)(i), as added by Pub. L. No. 101-649 Sec. 206(b)(2).
10
   See INA § 214(c)(2)(D)(ii), 8 U.S.C. § 1184(c)(2)(D)(ii) as added by Pub. L. No. 101-649 Sec. 206(b)(2).
11
   See INA § 101(a)(15)(L), 8 U.S.C. § 1101(a)(15)(L) and 203(b)(1)(C), 8 U.S.C. § 1153(b)(1)(C), as added by Pub. L.
No. 101-649 Sec. 206(a).
12
   See INA § 214(c)(2)(A), 8 U.S.C. § 1184(c)(2)(A), as added by Pub. L. No. 101-649 Sec. 206(b)(2).
13
   See INA § 101(a)(15)(L), 8 U.S.C. § 1101(a)(15)(L), as added by Pub. L. No. 101-649 Sec. 206(c)).

                         Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                        Page 2
                      USCIS describes intracompany transferees as belonging to one of two
                      subcategories:14
                         • L-1A is an alien coming temporarily to perform services in a managerial
                             or executive capacity.
                         • L-1B is an alien coming temporarily to perform services that entail
                             specialized knowledge. Specialized knowledge is special knowledge of
                             the employer's product or its application in international markets or an
                             advanced level of knowledge of the employer's processes and procedures.

                      L-1 beneficiaries15 must have worked abroad for the petitioning corporation or
                      firm, or for a branch, subsidiary, or affiliate of the petitioning company for one
                      continuous year within a three-year period immediately preceding the filing of the
                      petition. These time-of-service limitations are intended to limit the L-visa to
                      existing foreign employees, sent to the United States temporarily, and to preclude
                      companies from hiring abroad for U.S. vacancies. Other temporary worker visa
                      programs, such as the E, H, J, O and P, are designed to accommodate other kinds
                      of employment: entrepreneur investors; business trainees; aliens of extraordinary
                      ability in arts, science, education, business, or athletics; internationally recognized
                      athletes, entertainers, and fashion models; and aliens coming temporarily to
                      participate in an international cultural exchange program. Both the entertainment
                      industry and professional sports employ many temporary workers, and a number
                      of business executives playing leading roles in U.S. companies were initially
                      transferred to the United States on temporary worker visas.

                      To receive an L-1 visa, a petition (Form I-129) must be filed with USCIS on
                      behalf of the worker by a sponsoring firm. An L-1 petition, when approved, is
                      used by a beneficiary to apply for an L-1 visa if abroad, or to change status if
                      already in the United States. Canadian beneficiaries are reviewed for admission
                      when they arrive at the border, because Canadians are exempt from most
                      nonimmigrant visa requirements.

                      USCIS adjudicators examine many factors before approving an L-1 petition.
                      Both the position that is going to be filled and the worker who will be hired must
                      meet many criteria. Petitions that are complete and clearly meet the standards can
                      be promptly approved. Other petitions require correspondence - a Request For
                      Evidence (RFE) - between the service center and the petitioner to resolve unclear
                      or incomplete submissions.

14
   While immigration law and consular procedure make no division of the L-1 category into L-1A and L-1B, USCIS does
internally, and we will use their terms in our report. Petitioners select A or B when completing the "L Classification
Supplement to Form I-129" depending on whether the beneficiary is A) coming to perform services in a managerial or
executive capacity, or B) coming to perform services that entail specialized knowledge.
15
   Immigration petitions are submitted by a "petitioner,” who requests that some particular status be accorded to a named
"beneficiary." In the context of employment-based visas, the petitioner is usually the employing company, and the
beneficiary is the named foreign worker. Once the beneficiary has been deemed by USCIS to be entitled to the requested
classification, he or she can apply for an appropriate visa at a U.S. embassy.

                          Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                         Page 3
                     Receipts and approvals of L-1 petitions increased dramatically (almost tripling) in
                     the late 1990s. There has been a slight decline since 2001.


                        60000

                        50000

                        40000
                                                                                                 Approved
                        30000
                                                                                                 Petitions
                        20000

                        10000

                                0
                               95

                                         97

                                                  99

                                                            01

                                                                     03

                                                                               05
                             19

                                       19

                                                19

                                                          20

                                                                   20

                                                                             20

                         Source: US Citizenship and Immigration Services (January 11, 2006)

                     Is the L-1 "The Computer Visa"?

                     Though the L-1 visa program is not specifically tailored for the computer or
                     information technology (IT) industries, the positions L-1 applicants are filling are
                     most often related to computers and IT. From 1999 to 2004, nine of the ten firms
                     that petitioned for the most L-1 workers were computer and IT related
                     outsourcing service firms that specialize in labor from India.16 And although the
                     L-1 visa program was not intended to benefit any one country, almost 50 percent
                     of the L-1B (specialized knowledge) petitions submitted in FY 2005 named
                     beneficiaries who were born in India.




16
  These firms were Tata Consultancy, Cognizant Technology Solutions, Wipro Technologies, Hewlett Packard, I-Flex
Solutions, IBM Global Services, Information Systems Technology, Syntel Incorporated, and Satyam Computer Services.
The exception was Honda.

                        Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                       Page 4
                     Top Five Approved L-1B (Specialized Knowledge) Petition Source Countries and
                     Share of Total L-1B17

                                         2002                                     2005
                      Canada                     25%              India                     48%
                      Japan                      12%              Canada                    15%
                      India                      10%              UK                         5%
                      UK                          5%              Japan                      4%
                      Germany                     5%              Germany                    3%
                     Source: US   Citizenship and Immigration Services (January 11, 2006)

                     There is no similar concentration among L-1A beneficiaries. The top five L-1A
                     countries together represent only 48 percent of the FY 2005 total.

                     Top Five Approved L-1A (Manager) Petition Source Countries and Share of Total L-1A

                                         2002                                     2005
                      Canada                     20%              Canada                    17%
                      UK                          7%              India                     11%
                      Japan                       6%              UK                        11%
                      India                       5%              Japan                      5%
                      Argentina                   5%              Mexico                     4%
                     Source: US   Citizenship and Immigration Services (January 11, 2006)



Results of Inspection
                     USCIS adjudicators we interviewed expressed a desire for more written guidance
                     on how to adjudicate L-1 petitions. When questioned in more detail, however, it
                     became clear that the underlying issue troubling them is their perception that the
                     category is subject to fraud and abuse, rather than lack of guidance. Chapter 32 of
                     the USCIS Adjudicator's Field Manual covers L requirements in considerable
                     detail.

                     Many immigration benefits are based upon facts that can be verified. For example,
                     an immigrant beneficiary either is or is not the lawful spouse of a U.S. citizen. An
                     adjudicator can examine civil records, or interview the husband and wife, to
                     confirm or disprove the claimed relationship. Likewise, a would-be student either
                     has or has not been accepted by an accredited American educational institution. An
                     adjudicator can check with the school.

                     Employment-based visas – and there are both nonimmigrant and immigrant visa
                     classes that are employment-based – are perceived as more susceptible to fraud

17
  Only proportions are given and absolute numbers are omitted because country breakdown data provided by USCIS is
not reconcilable with total L-1 approval data.

                        Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                         Page 5
                     because they are more difficult or impossible to verify. An adjudicator cannot be
                     certain that a beneficiary will work as a personnel manager if approved, or as just
                     another salesperson. No document can be requested that will prove the future
                     activities of the beneficiary. A beneficiary's entitlement to the classification is
                     based on, among other factors, their future conduct. Additionally, adjudicators told
                     us that employment-based petitions were usually professionally prepared by
                     experienced attorneys, and were either too vague, or conversely too technical, for
                     the adjudicator to make appropriate decisions. The adjudicators we interviewed felt
                     unanimously that three vulnerabilities were the most significant they face, and these
                     made their job extremely difficult with regard to adjudicating L-1 petitions:
                         • managerial status is difficult to verify,
                         • the definition of specialized knowledge is very broad, and
                         • foreign companies may be illegitimate.

                     DOS consular officers expressed identical concerns in their responses to our survey
                     questions.18

     Adjudicators Need Additional Information to Verify Managerial Status
                     The adjudicators we interviewed reported that one vulnerability of the L-1A
                     program involved verification of the managerial status of the petitioned workers.19
                     Though a petitioning firm may claim in their application that a worker will be
                     performing managerial functions, once the worker arrives in the United States
                     there is nothing to prevent the firm from employing the employee in a different
                     capacity. Adjudicators are aware that there is sometimes a fine line between a
                     senior worker, even a team leader, and a true manager. As an example, they
                     discussed a busy and growing import-export firm. Typically starting as a solo
                     activity, the one person at the one-person firm may not be a manager in the L-visa
                     sense of the word if the work they do is selling products and filling out customs
                     documents. When business grows and the founder hires someone else to answer
                     the phone, but otherwise continues to do the product selection and importing, that
                     person is still not a manager. Much later, when the growing firm has an employee
                     who does nothing related to import-export at all, but who is responsible for
                     personnel, "management" appears in the firm.

                     One complication that the adjudicators mentioned was that it is possible for a
                     formerly successful firm to suffer commercial reverses and to shrink in size.
                     When this happens the firm might no longer need a layer of management that was
                     formerly useful. Shifting an L-1 manager to a non-management position for
                     economic reasons such as this is allowed under the program.



18
  A full description of the questionnaire given to DOS is provided in Appendix D.
19
  Almost half of the L-1 petitions received and approved by USCIS are for L-1A managers and executives. For
definitions of “manager” and “executive,” see Appendix B.

                         Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                        Page 6
                       Adjudicators had varying techniques to attempt to determine whether a petitioning
                       firm genuinely intended to employ a worker as a manager. At the request of
                       USCIS, these fraud detection techniques will not be discussed in detail. Some
                       adjudicators told us that they felt some of these techniques were difficult to use
                       because they were insufficiently precise and failed to give the adjudicator a
                       "bright-line" test. Adjudicators examine the credibility of the claims made in the
                       petition in a variety of ways. Some adjudicators expressed hesitancy to accept at
                       face value documentation from abroad, and pointed out that these self-serving
                       documents could not be verified.

                       DOS consular officers who responded to our survey expressed similar concerns
                       when L-1 applicants apply for visas. One southeast Asian consular section
                       reported: “We suspect, but find it very difficult to prove, that some employees are
                       actually doing different work than claimed in the application once they get to the
                       United States, and that the employer-employee relationship with the U.S.
                       subsidiary of the sending firm may not be as clear cut as the applicant claims.”


       Definition of the Term “Specialized Knowledge” May Not Be Sufficiently
       Restrictive
                       The number of L-1B "specialized knowledge" petitions approved by USCIS has
                       risen steadily for several years, and in FY 2004 exceeded for the first time the
                       number of L-1A petitions approved for managers and executives.

                                                   L-1B Overtakes L-1A

                           20000

                           15000

                           10000

                            5000

                               0
                               1997   1998    1999   2000    2001   2002    2003   2004    2005

                                                          L-1A       L-1B

                       Source: US Citizenship and Immigration Services. Data as of January 12, 2006

                       L-1B positions are designated for workers who perform services that involve
                       specialized knowledge.20 The prior regulatory definition required that the
                       beneficiary possess an advanced level of expertise and proprietary knowledge not
                       available in the United States labor market. In 1990, Congress enacted section
                       214(c)(2)(B) of the Immigration and Nationality Act, as amended, 8 U.S.C.

20
     DHS USCIS I-129 Instruction Manual, page 6.

                          Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                         Page 7
1184(c)(2)(B), which specifically provided for a less stringent definition of the
term "specialized knowledge" for L-1 purposes.

Aware of the existing regulatory requirement that the alien’s specialized
knowledge be “proprietary” to the petitioning company, Congress, in enacting
section 214(c)(2)(B) of the Act, set forth two different means for determining
when an alien has specialized knowledge. Section 214(c)(2)(B) provides that: (a)
the alien must have special (as opposed to proprietary) knowledge of the company
product and its application in international markets or (b) the alien has an
advanced level of knowledge of the processes and procedures of the company.

Following enactment of section 214(c)(2)(B), the former Immigration and
Naturalization Service (INS) issued a policy memorandum on March 9, 1994, to
all offices clarifying what is or is not specialized knowledge. This memorandum,
entitled “Interpretation of Specialized Knowledge,” is included in the
Adjudicator’s Field Manual as Appendix 32-1, and is still valid. In 2003, USCIS
issued a second memorandum (“Interpretation of Specialized Knowledge for
Chefs and Specialty Cooks Seeking L-1B Status”) that, among other things,
clarified certain general points made in the 1994 memorandum.

The 1994 memorandum makes clear that, in light of the enactment of section
214(c)(2)(B) of the Act, there is no longer any requirement that the alien’s
knowledge be unique or proprietary. The 1994 memorandum further clarifies that
the beneficiary's specialized knowledge can have been gained outside of the
petitioning company, and in fact, might even be knowledge that, over time, could
be transferable to a worker already in the United States through training.

The 1994 memorandum contains several important caveats, however, which are
reiterated in the 2003 memorandum. The mere fact that an alien’s knowledge is
somehow different from those of others in the industry does not, in itself,
establish that the alien possesses specialized knowledge. The knowledge must be
uncommon, noteworthy, or distinguished by some unusual quality and not
generally known by practitioners in the alien’s field of endeavor.

According to the manual, adjudication requires the understanding of key terms,
the meaning of which "have been defined over the years through various
documents, including statutes, regulations, precedent decisions, and policy
memoranda." The manual even lists which precedent decisions shape the
meaning of each of several terms, including specialized knowledge.

While the current criteria for determining whether an alien is eligible for L-1B
classification are not lax, given the 1990 amendment to the statute which
effectively overruled INS’s requirement that the alien’s knowledge be proprietary,
there is little room, absent new legislation, to further tighten the standards for L-
1B classification. A bill to eliminate specialized knowledge as the basis for


   Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                  Page 8
                     obtaining an L visa, H.R. 4415, was introduced in the 108th Congress but did not
                     pass.21 That so many foreign workers seem to qualify as possessing specialized
                     knowledge appears to have led to the displacement of American workers, and to
                     what is sometimes called the "body shop" problem.

                     Displaced American Workers

                     There has been considerable media attention regarding the L-1 program over the
                     past few years. Articles have focused on the increase in L-1 visa issuance in the
                     IT sector and on the potential for the L-1 program to be used as a substitute to the
                     H-1B program.22 Articles also have focused on firms’ abilities to use the program
                     for labor outsourcing, and on supposed cuts to the American labor force and
                     wages. 23

                     Witnesses testifying at congressional hearings have repeated these concerns.
                     Labor advocates felt the L-1 program was growing because of insufficient
                     limitations, and that “the absence of these and other protections and limitations
                     make the L-1 program far more attractive to employers than H-1B, and is a major
                     reason for the explosive growth in this visa category.”24 Workers told of training
                     their own replacements and implied that the L-1 program was driving down
                     salaries and stealing American jobs; “Every H1-B and L-1 visa given to
                     outsourcing companies like Tata is a job an American should have.”25

                     DOS foreign service officers also expressed concern about substitution. One
                     southeast Asian post we surveyed reported: “Host country software companies
                     appear to be using the L visa to get around H quotas, and relocate individuals who
                     may not meet the specialized knowledge requirement.”

                     Most of the discussion of the job losses American workers have experienced as a
                     result of L visas is focused on L-1B specialized knowledge workers, not L-1A
                     managers and executives.26 Simultaneously, there has been much public

21
   "The Save American Jobs Through L Visa Reform Act" was introduced by Rep. Henry Hyde.
22
   See INA § 101(a)(15)(H), 8 U.S.C. § 1101(a)(15)(H).
23
   New York Times, “Special Visa's Use for Tech Workers Is Challenged,” May 30, 2003; Business Week, “A
Mainframe-Size Visa Loophole,” March 6, 2003; San Francisco Chronicle, “Visa's Use Provokes Opposition by Techies,
L-1 Regarded as Threat to Workers,” May 25, 2003.
24
   Testimony of Michael W. Gildea, Executive Director, Department for Professional Employees, AFL-CIO Before the
Senate Committee on the Judiciary Subcommittee on Immigration and Border Security Regarding the L-1 Visa Program,
July 29, 2003.
25
   Testimony by Former Siemens Technology Employee, Pat Fluno, on L-1 Visas Before the Senate Committee on the
Judiciary Subcommittee on Immigration and Border Security Regarding the L-1 Visa Program, July 29, 2003.
26
   Testimony of Beth R. Verman President, Systems Staffing Group, Inc. on behalf of National Association of Computer
Consultant Businesses (NACCB) Before The Senate Committee on the Judiciary Subcommittee on Immigration and
Border Security Regarding the L-1 Visa Program, July 29, 2003; Testimony of Austin T. Fragomen, Managing Partner,
Fragomen, Del Rey, Bernsen & Loewy, P.C., on behalf of the American Council on International Personnel (ACIP)
Before The Senate Committee on the Judiciary Subcommittee on Subcommittee on Immigration and Border Security
Regarding the L-1 Visa Program, July 29, 2003.

                         Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                        Page 9
                     discussion of the threat to American workers posed by a similar visa, the H-1B.27
                     The two temporary worker visas have much in common: the L-1B program is
                     designed for workers with “specialized knowledge”28 and the H-1B program is
                     designed for workers in “specialty occupations.”29 But there are also several
                     significant differences between the two visa categories. An American company
                     with no overseas operations can submit an H petition, and the beneficiary need
                     not and usually has not previously worked for the petitioner.

                     To manage the displacement of American workers, Congress has imposed a
                     statutory limit on the number of H-1B petitions for workers in specialty
                     occupations that can be approved each year.30 There is some concern that the L-
                     1B visa for workers with specialized knowledge, which has no such numerical
                     limit, might serve as a way to avoid the H-1B cap for some employers.

                     The L-1 visa has other advantages over the H-1B, too, besides being numerically
                     unrestricted. One is that unlike the H-1B, the L-1 has no labor certification
                     requirement to ensure that recipients are paid the prevailing wage and that
                     American workers are not displaced.31 The L-1 has another advantage over the
                     H-1B for those who might qualify for either category, such as IT workers: the
                     permissibility of spousal employment. The accompanying spouses of L-1
                     recipients are given L-2 visas; the spouses of H-1B recipients are given H-4 visas.
                     It is generally lawful for an L-2, but not an H-4, to accept gainful employment.32

                     While many of the claims that appear in the media about L-1 workers displacing
                     American workers and testimony may have merit, they do not seem to represent a
                     significant national trend. While L-1 visa issuance has generally increased in the
                     decades since the category was created, issuance has abated in recent years. And
                     while it is possible for the L-1B program to be used by some individuals who are
                     also eligible for H-1B program, we could not establish how often this occurs. In
                     2004, only 1,975 applicants applied for both the L-1 and H-1B.33 Adjudicators
                     pointed out to us that it sometimes occurs that a foreign student about to graduate
                     might receive multiple legitimate job offers and be the beneficiary of two or more
                     petitions filed during the same period. Such an event does not indicate that either
                     of the petitioners, or the beneficiary, is trying to take advantage of the system.
                     Another possible indication that L-1s are not widely used as alternatives to the H-
                     1B is that in fiscal year 2004 the congressional numerical limit on H-1B status


27
   Ibid, plus Testimony of Stephen Yale-Loehr Adjunct Professor of Law, Cornell Law School Before the Senate
Committee on the Judiciary Subcommittee on Immigration and Border Security Regarding the L-1 Visa Program, July
29, 2003.
28
   See INA § 101(a)(15)(L), 8 U.S.C. § 1101(a)(15)(L) and INA § 214(c)(2)(B), 8 U.S.C. § 1184(c)(2)(B).
29
   See INA § 101(a)(15)(H), 8 U.S.C. § 1101(a)(15)(H) and INA § 214(i)(3), 8 U.S.C. § 1184(i)(3).
30
   See INA § 214(g)(1)(A), 8 U.S.C. § 1184(g)(1)(A), as added by Pub. L. No. 101-649 Sec 205(a).
31
   DHS USCIS I-129 Instruction Manual, page 3.
32
   "Immigrant Wives' Visa Status Keeps Them Out of Workplace," Washington Post, October 3, 2005, Page A01.
33
   Source: US Citizens and Immigration Services.

                        Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                      Page 10
                        was significantly reduced,34 but no increase in L receipts or approvals was
                        observed.

                        On the whole, the demand for computer and IT related positions also seems to be
                        strong. From 1999 to 2004, computer and IT related employment averaged 1.4
                        percent annual real wage growth, compared to 1.3 percent growth for production
                        workers, and a 3.5 percent increase in the number of positions annually compared
                        to 0.7 percent annually for production workers.

                        There may be a perception that the L-1 program is larger and more significant
                        than it is because beneficiaries are grouped together in certain areas of the
                        country. L-1 positions tend to be concentrated in a few states. For four of the last
                        five years, California has received the most L visa workers.

                        USCIS adjudicators said the L-1B program had the potential to be easily exploited
                        for two major reasons. First, adjudicators said that without a more restrictive and
                        more precise definition of “specialized knowledge,” their denials tended to be
                        subjective. Subjective decisions, they said, are more easily appealed. Because of
                        their desire to do their jobs correctly, successful appeals are seen as a kind of
                        failure that they strive to avoid. They were therefore inclined to approve
                        ambiguous petitions rather than denying them. Second, they reported to us that
                        because many petitions were for employment in the rapidly evolving high
                        technology sector, they did not have sufficient technical expertise to determine
                        whether the beneficiary's knowledge is specialized or general. And the petitions
                        often contain highly technical language that is not readily comprehensible to an
                        adjudicator.

                        The DOS consular professionals we surveyed echoed many of the comments of
                        the adjudicators. One Southeast Asian visa section reported “officers do not have
                        the knowledge or the guidance necessary to determine whether such work
                        involves specialized knowledge, except in the most clear cut cases.”

                        The "Body Shop" Problem

                        Of the many actual and potential vulnerabilities of the L-1 visa, the body shop
                        problem has received the most attention in the press, and during congressional
                        hearings.

                        Briefly, there are companies whose business involves providing the services of
                        their own employees to other companies for a fee. Some of these companies are
                        general purpose temporary employment agencies that provide both blue collar
                        workers, such as laborers, and white collar staff, such as accountants. Newer on
                        the scene are high-tech information technology (IT) service providers that

34
     See INA § 214(g)(1)(A)(vi), 8 U.S.C. § 1184(g)(1)(A)(vi), as added by Pub. L. No. 101-649 Sec 205(a).

                            Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                          Page 11
                      specialize in computer operators, network managers, systems analysts, and
                      programmers. During the boom years for the U.S. tech industry in the 1990s,
                      there was a growing demand for these kinds of high-tech workers. Foreign IT
                      service providers could transfer more and more of their foreign workers to the
                      U.S. branch of the company – and place them with their U.S. clients. The ebb and
                      flow of L-1B workers correlates closely with the general health of the U.S. high-
                      tech industry, as the following chart illustrates.


                                                                  The Computer Visa?

                                                                      NASDAQ       L-1Bs

                                              4000                                                        16000
                                              3500                                                        14000
                          NASDAQ High Close




                                                                                                                     L-1B Approvals
                                              3000                                                        12000
                                              2500                                                        10000
                                              2000                                                        8000
                                              1500                                                        6000
                                              1000                                                        4000
                                              500                                                         2000
                                                0                                                         0
                                                     1995 1996 1997 1998 1999 2000 2001 2002 2003 2004
                                                                          Years

                         NASDAQ levels: The Economic                               L-1B data: U.S. Citizenship and
                         Report of the President, 2005.                            Immigration Services


                      According to press accounts, many unemployed American IT workers saw
                      themselves as displaced by a rising tide of foreign IT workers. The great majority
                      of the new foreign IT employees entered the United States using the H-1B
                      temporary worker visa, not the L-1. There is considerable room for overlapping
                      of the two categories, but the most important distinction is that H-1B workers are
                      petitioned for directly by U.S. companies, and are usually new hires, whereas
                      L-1s are being transferred from a foreign company. The H-1B visa is so popular
                      that Congress has placed explicit limits on the number of petitions that can be
                      issued in any one year. In fiscal year 1998, that limit was 65,000 beneficiaries.35
                      For 1999 and 2000, the limit was raised to 115,000. In 2001 and 2002, the limit
                      was raised even higher, to 195,000. Since 2003, the limit has since been lowered
                      to 65,000 again. L-1 foreign IT workers represented only a small component of a
                      much larger wave of foreign IT workers that came to the United States on
35
   The limitation on H-1B status is actually rather complicated, with several exceptions to the limit that make counting
difficult. For more information about H-1B limits, see our recent report "USCIS Approval of H-1B Petitions Exceeded
65,000 Cap in Fiscal Year 2005, OIG-05-49, released in September 2005.

                          Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                                    Page 12
                        temporary worker visas. The busiest year for L-1B visas, fiscal year 2000, saw
                        more than ten H-1B workers for every one L-1B worker. In FY 2002, the ratio
                        was twenty to one. Foreign IT workers may indeed have affected employment
                        opportunities for American IT workers, but the L-1B visa would appear to be only
                        a very small element of the problem.

                        Nevertheless, the appearance of foreign companies establishing branches in the
                        United States and then driving American workers out of their jobs with
                        transplanted competitors led Congress to address the body shop issue in the L-1
                        Visa Reform Act of 2004, signed into law December 8, 2004.36

                                 SEC. 412. NONIMMIGRANT L-1 VISA CATEGORY.

                                 (a) IN GENERAL- Section 214(c)(2) of the Immigration and
                                 Nationality Act (8 U.S.C. 1184(c)(2)) is amended by adding at
                                 the end the following:
                                     (F) An alien who will serve in a capacity involving
                                     specialized knowledge with respect to an employer for
                                     purposes of section 101(a)(15)(L) and will be stationed
                                     primarily at the worksite of an employer other than the
                                     petitioning employer or its affiliate, subsidiary, or parent
                                     shall not be eligible for classification under section
                                     101(a)(15)(L) if—
                                     (i) the alien will be controlled and supervised principally by
                                     such unaffiliated employer; or
                                     (ii) the placement of the alien at the worksite of the
                                     unaffiliated employer is essentially an arrangement to
                                     provide labor for hire for the unaffiliated employer, rather
                                     than a placement in connection with the provision of a
                                     product or service for which specialized knowledge
                                     specific to the petitioning employer is necessary.

                        It is too soon for the effects of this legislative change to be determined.

       Adjudicators Need Additional Information to Verify a Foreign Company's
       Legitimacy
                        The L-1 program allows qualifying workers who have been employed abroad by
                        the petitioner continuously for one year of the last three to be transferred to the
                        United States. In order for the petitioning company to be eligible, it must be "the
                        same firm, corporation, or other legal entity, or parent, branch, affiliate or
                        subsidiary thereof, for whom the beneficiary has been employed abroad."37

36
     See INA § 214(c)(2)(F), 8 U.S.C. § 1184(c)(2)(F), as added by Pub. L. No. 108-649, Sec 412(a).
37
     U.S. Department of State Foreign Affairs Manual, Volume 9, section 41.54, note 2.1.

                            Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                          Page 13
                        There is a widespread belief that the L visa was created so that large American
                        companies with international operations could move foreign executive talent into
                        the pre-existing U.S. offices of those companies. The Department of State
                        Foreign Affairs Manual contains the following background information in its
                        guidance for consular officers adjudicating L visas:

                                 The L nonimmigrant classification was created to permit
                                 international companies to temporarily transfer qualified
                                 employees to the United States for the purpose of improving
                                 management effectiveness, expanding U.S. exports, and
                                 enhancing competitiveness in markets abroad. Prior to the
                                 enactment of Public Law 91-225, no nonimmigrant
                                 classification existed which fully met the needs of
                                 intracompany transferees. Those who did not qualify as E
                                 nonimmigrants were forced to apply for immigrant visas to the
                                 United States, even if there was no intent to reside
                                 permanently.38

                        Whether or not the L visa was created to serve the needs of multinational
                        corporations, the law creating the category does not require that the petitioning
                        company have any operations in the United States, or even operate in more than
                        one country, at the time of the filing of the petition. It merely requires that the
                        alien comes to the United States to continue to serve the petitioning employer, or
                        a subsidiary or affiliate thereof, in a capacity that is managerial, executive, or
                        involves specialized knowledge.39 Any foreign company can use the L visa to
                        send employees to the United States to open a new office. This opens a window
                        of opportunity for the owners of a business abroad to send themselves and their
                        families to the United States to live, work, and study. The INA permits the
                        spouses of L beneficiaries to work in the United States, and the children may
                        attend public school.

                        Once the first beneficiary has arrived in the United States, the foreign company
                        effectively has a U.S. branch. The new U.S. office, not the parent company
                        abroad, typically files subsequent petitions on behalf of the company. Because of
                        this, and because many of the petitions USCIS receives are from existing U.S.
                        companies, the "new office" petition is a small percentage of the total. Most L
                        petitioners have both U.S. and foreign offices at the time the petition is submitted.

                        USCIS adjudicators must determine whether the U.S. and foreign entities truly
                        exist, and have the required commercial interrelationship. This process is
                        designed to prevent individuals or groups from creating shell companies in one


38
     U.S. Department of State Foreign Affairs Manual, Volume 9, section 41.54, note 1.b.
39
     See INA § 101(a)(15)(L), 8 U.S.C. § 1101(a)(15)(L) and 203(b)(1)(C), 8 U.S.C. § 1153(b)(1)(C).

                            Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                          Page 14
country or the other, or falsifying the relationship between two legitimate
companies, to transfer otherwise ineligible aliens to the United States.

To make their decisions, adjudicators use evidence supplied by the petitioning
company of the qualifying relationship between the U.S. and foreign entities. The
adjudicator must analyze the ownership and control of the two entities. Evidence
often includes an annual report, the articles of incorporation, financial statements,
and copies of stock certificates. Unless the company is well known, adjudicators
might find the submitted evidence insufficient to establish the facts. They will
then send the petitioner an RFE. Typically, the request will ask for quarterly
wage reports and state business tax returns to prove that the firm is actually
conducting business in the United States. This RFE, though, slows the
adjudication process. Many adjudicators we spoke with expressed a desire that
quarterly wage reports and tax returns be made required documents, to be
submitted with all L petitions. They felt this would reduce the need to issue so
many RFEs.

It can be a very difficult task for an adjudicator to verify that a business exists
abroad. Adjudicators said they did not place much confidence in documents from
abroad because they are easy to counterfeit in a fashion that the adjudicator would
not be able to detect. As an example, they related that their familiarity with
California state employment tax documents makes it possible for them to spot
forged or altered versions submitted with fraudulent petitions. This sometimes
occurs, they said, when a petitioner seeks to exaggerate the number of current
employees to sustain a claim that an additional manager is required. They also
pointed out that any suspicions they might have about a U.S. document can likely
be resolved with a telephone call to the issuing authority. With respect to firms
abroad, however, they have vastly less ability to detect bogus documents, or to
resolve suspicions if any arise. There is little information available publicly in the
United States that would assist the adjudicator in determining whether a business
abroad is legitimate.

On occasion an adjudicator will seek assistance from the U.S. embassy in the
foreign country, and ask them to conduct an investigation as to the legitimacy of
the claimed business. Verifying businesses for USCIS is a routine task for many
consular officers in countries like India and China, but officers in those countries
expressed concern in our survey about businesses located in small or far-away
cities that they could not verify first-hand. USCIS petitions in which the
adjudicator suspects fraud can be referred to the service center's own Fraud
Detection Center. These offices not only have advanced tools for detecting
petition fraud, but also serve a valuable role as a liaison to Immigration and
Customs Enforcement (ICE).

DOS foreign service officers expressed parallel concerns when the beneficiaries
apply for visas. One very large embassy reported, “L-1 applicants claim they are


   Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                 Page 15
           being sent to open new offices or subsidiaries in the United States. It is
           impossible to verify these claims as the new company need only show to DHS
           that it has a leased business space and possesses company registration. When we
           subsequently investigate "existing" U.S. entities, we often find that the U.S. office
           never actually existed in the true sense, or that it is no longer doing business.”

           USCIS plans to establish a standard mechanism to request overseas verification of
           pending H and L petitions by Department of State officers in the related countries.
           State, for its part, plans to use its one-third share of the new $500 Fraud
           Prevention and Detection Fee to expand its anti-fraud staffing abroad. They
           would be able to verify education, experience, relationships, and other
           information provided in support of H and L petitions. This initiative will, if
           implemented, reduce successful L petition fraud.


Recommendations
           We recommend that U.S. Citizenship and Immigration Services:

           Recommendation 1: Establish a procedure to obtain overseas verification of
           pending H and L petitions by Department of State officers in the related countries.

           Recommendation 2: Explore with ICE whether ICE Visa Security Officers,
           experienced criminal investigators assigned abroad in compliance with Section
           428(e) of the Homeland Security Act, could assist in checking the bona fides of L
           petitions submitted by petitioners in the countries in which the officers are
           assigned.

           Recommendation 3: In cooperation with “L Visa Interagency Task Force,”
           which consists of representatives from the Departments of Homeland Security,
           Justice, and State, seek legislative clarification relative to:
               a) applying the concepts of manager and executive to L-1A visas and
               verifying that the beneficiary will be so used;
               b) the term “specialized knowledge,” as altered in the Immigration Act of
               1990, and according to USCIS guidance issued in March 1994; and
               c) the criteria and proof required when a foreign company seeks to use an L
               petition to open a new office in the United States. That almost any foreign
               business proprietor can effectively petition himself and his family into the
               United States may not be in accord with congressional intent.


Management Comments and OIG Analysis
           We issued our draft report on November 30, 2005, and met with USCIS officials
           on January 4, 2006 to discuss the report. The draft was also circulated to CA for

              Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                            Page 16
its comments, which are attached at Appendix F. USCIS was invited to provide
us with technical comments about and corrections to the draft; these were
submitted to us separately for our consideration, and have been incorporated into
our final report as appropriate. We also requested, and received, up-to-date FY
2005 petition counts to improve the quality of our charts. We thank USCIS and
CA for their assistance at all stages of our work.

The USCIS response to our draft has added a wealth of legal background to our
analysis of the fraud and potential abuse of the L-1 Intracompany Transferee Visa
program. A copy of these comments is attached at Appendix E. Below is our
summary of USCIS' comments about our recommendations and our analysis of its
response.

The draft version of our report that was circulated for comment contained a
recommendation that USCIS expand its anti-fraud activities abroad by stationing
FDNS anti-fraud immigration officers at embassies and consulates general in
countries that present the highest risk of petition and benefit fraud. While several
USCIS officials we interviewed during our research had commended such an
approach, at this time neither USCIS managers nor the Department of State
endorse this idea. USCIS states in its comments that it has thoroughly reviewed
the option to station anti-fraud immigration officers in overseas locations but
determined that it would be more effective and efficient to rely on the current
structure and establish a standard mechanism to request overseas verifications
through the Department of State (DOS). In their comments, both USCIS and CA
pledge better future cooperation to combat fraud.

CA advised that its fraud prevention officers investigate L visa fraud already. We
believe that the vast majority of CA's anti-fraud activities in this area (petition
fraud) involve questionable petitions that have already been approved by USCIS.
These efforts suggest to us that more anti-fraud work should be done before
questionable petitions are approved and sent to embassies for processing. CA
also states that the Fraud Prevention and Detection Fee enacted in Section 426 of
the 2004 Visa Reform Act (Title IV of the Omnibus Appropriations Act, P. L.
108-447) will be used by the Department of State to increase the number of
Diplomatic Security (DS) bureau officers assigned to such duty at embassies and
consulates abroad. The Department of State OIG recently studied the current
CA–DS anti fraud program (Report of Management Review of Visa and Passport
Fraud Prevention Programs, Report Number ISP-CA-05-52, November 2004).
The report contained 28 recommendations to improve the program and stated that
"most posts ... lack the resources to address fraud effectively." CA's larger point,
that with CA and DS already conducting some fraud detection efforts abroad, and
with the new Visa Security Officer positions staffed abroad by DHS's bureau of
Immigration and Customs Enforcement (ICE) adding to the mix, the field is
getting crowded and inefficiencies and redundancies will occur. We fully agree
with CA that this redundancy of functions may become wasteful in the future.


   Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                 Page 17
Given the position taken by both USCIS and CA to oppose any USCIS FDNS
expansion abroad, however, and considering their declared intention to instead
expand State's role in detecting and preventing H and L visa fraud before
questionable petitions are approved, we have reconstituted our recommendation
accordingly.

Recommendation 1: We recommend that USCIS establish a procedure to
obtain overseas verification of pending H and L petitions by Department of
State officers in the related countries.

As indicated, this recommendation has been formulated to be consistent with
current USCIS initiatives. We request a report from FDNS within 90 days of
actions taken by USCIS to comply.

Recommendation 1 is Resolved – Open.


Recommendation 2: We recommend that USCIS explore with ICE whether
ICE Visa Security Officers, experienced criminal investigators assigned
abroad in compliance with Section 428(e) of the Homeland Security Act,
could assist in checking the bona fides of L petitions submitted by petitioners
in the countries in which the officers are assigned.

USCIS indicates in its comments that it is pursuing this recommendation with
ICE's Visa Security Unit. USCIS points out that even if such assistance can be
obtained, it will only be useful in the few countries in which ICE operates VSUs.
We request a report from USCIS within 90 days of their efforts to obtain ICE
assistance in those countries.

Recommendation 2 is Resolved – Open.


Recommendation 3: We recommend that USCIS, in the framework of its
participation in the “L Visa Interagency Task Force,” which consists of
representatives from the Departments of Homeland Security, Justice, and
State, seek legislative clarification relative to:
   a) applying the concepts of manager and executive to L-1A visas and
   verifying that the beneficiary will be so used;
   b) the term “specialized knowledge,” as altered in the Immigration Act of
   1990, and according to USCIS guidance issued in March 1994; and,
   c) the criteria and proof required when a foreign company seeks to use an
   L petition to open a new office in the United States.




   Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                 Page 18
USCIS responds that any legislative recommendation to Congress requires
Department of Homeland Security and interagency review and clearance through
the Office of Management and Budget to ensure that it is consistent with the
Administration's program. There are many hurdles to the consideration and
enactment of new law. These hurdles do not preclude an agency from considering
legislative changes recommended by an OIG and stemming from the OIG's
responsibility to review existing law and to make recommendations concerning
the impact of such legislation. See Inspector General Act of 1978, 5 U.S.C.A.,
§ 4(a)(2), (5). USCIS states that it will carefully review the matters raised by the
Inspector General, but does not agree that any legislative recommendations
regarding the L-l visa program are necessary or appropriate.

Section 416 of the Visa Reform Act requires the establishment of an L Visa
Interagency Task Force that consists of representatives from the Department of
Homeland Security, the Department of Justice, and the Department of State. The
law further requires that the Task Force report to the Committees on the Judiciary
of the House of Representatives and the Senate on the efforts to implement the
recommendations set forth by this report. The Task Force will note specific areas
of agreement and disagreement, and make recommendations to Congress on the
findings of the Task Force, including any suggestions for legislation.

It would therefore appear that our recommendation must necessarily be
considered by the Task Force through the operation of the law, and specific
compliance action by USCIS is unnecessary.

Recommendation 3 is Closed.




   Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                 Page 19
Appendix A
Purpose, Scope and Methodology




Purpose, Scope, and Methodology
                   The objective of this review was to determine the extent of vulnerabilities and
                   potential abuses of the L-1 visa program. We conducted fieldwork from April
                   2005 to June 2005.

                   We interviewed USCIS officials from the Office of Service Center Operations, the
                   Office of Fraud Detection and National Security. We also interviewed officials at
                   the DHS Management Directorate’s Office of Immigration Statistics.

                   We observed L-1 petition processing at the California Service Center in Laguna
                   Niguel, California, and interviewed adjudicators and managers.

                   With the cooperation of the Department of State, we visited the Kentucky Consular
                   Center in Williamsburg, Kentucky, where questionable L petitions are returned for
                   review. The Department of State also facilitated a written survey of consular
                   officers and foreign national fraud prevention specialists at the 20 largest L-visa
                   processing posts (see Appendix D).

                   This review was conducted under the authority of the Inspector General Act of
                   1978, as amended, and according to the Quality Standards for Inspections issued by
                   the President’s Council on Integrity and Efficiency.




                       Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                     Page 20
Appendix B
Relevant Sections of the Immigration and Nationality Act




Section 101(a)(15)(L) of the Immigration and Nationality Act
    (L) subject to section 214(c)(2), an alien who, within 3 years preceding the time of his
    application for admission into the United States, has been employed continuously for one year by
    a firm or corporation or other legal entity or an affiliate or subsidiary thereof and who seeks to
    enter the United States temporarily in order to continue to render his services to the same
    employer or a subsidiary or affiliate thereof in a capacity that is managerial, executive, or
    involves specialized knowledge, and the alien spouse and minor children of any such alien if
    accompanying him or following to join him;


Section 101(a)(44) of the Immigration and Nationality Act
    (44)(A) The term "managerial capacity" means an assignment within an organization in which
    the employee primarily-

        (i) manages the organization, or a department, subdivision, function, or component of the
        organization;

        (ii) supervises and controls the work of other supervisory, professional, or managerial
        employees, or manages an essential function within the organization, or a department or
        subdivision of the organization;

        (iii) if another employee or other employees are directly supervised, has the authority to hire
        and fire or recommend those as well as other personnel actions (such as promotion and leave
        authorization) or, if no other employee is directly supervised, functions at a senior level
        within the organizational hierarchy or with respect to the function managed; and

        (iv) exercises discretion over the day- to-day operations of the activity or function for which
        the employee has authority. A first-line supervisor is not considered to be acting in a
        managerial capacity merely by virtue of the supervisor's supervisory duties unless the
        employees supervised are professional.

    (B) The term "executive capacity" means an assignment within an organization in which the
    employee primarily- For purposes of section 101(a)(15)(L), an alien is considered to be serving
    in a capacity involving specialized knowledge with respect to a company if the alien has a
    special knowledge of the company product and its application in international markets or has an
    advanced level of knowledge of processes and procedures of the company.

        (i) directs the management of the organization or a major component or function of the
        organization;

        (ii) establishes the goals and policies of the organization, component, or function;


                         Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                       Page 21
     (iii) exercises wide latitude in discretionary decision-making; and

     (iv) receives only general supervision or direction from higher level executives, the board of
     directors, or stockholders of the organization.


Section 214(c)(2)(B) of the Immigration and Nationality Act
  (B) For purposes of section 101(a)(15)(L), an alien is considered to be serving in a capacity
  involving specialized knowledge with respect to a company if the alien has a special knowledge
  of the company product and its application in international markets or has an advanced level of
  knowledge of processes and procedures of the company.




                   Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                 Page 22
Appendix C
USCIS Adjudicator's Field Manual, Appendix 32-1, Specialized Knowledge


 USCIS Adjudicator's Field Manual, Appendix 32-1 Interpretation of Specialized Knowledge.

Editor’s Note: The following is the text of a memorandum issued March 9, 1994, to all offices by the
Acting Executive Associate Commissioner for Programs:

The Immigration Act of 1990 contains a definition of the term "specialized knowledge" which is
different in many respects than the prior regulatory definition. The purpose of this memorandum is
to provide field offices with guidance on the proper interpretation of the new statutory definition.

The prior regulatory definition required that the beneficiary possess an advanced level of expertise
and proprietary knowledge not available in the United States labor market. The current definition of
specialized knowledge contains two separate criteria and, obviously, involves a lesser, but still high,
standard. The statute states that the alien has specialized knowledge if he/she has special knowledge
of the company product and its application in international markets or has an advanced level of
knowledge of the processes and procedures of the company.

Since the statutory definitions and legislative history do not provide any further guidelines or insight
as to the interpretation of the terms "advanced" or "special," officers should utilize the common
dictionary definitions of the two terms as provided below.

Webster's II New Riverside University Dictionary defines the term "special" as "surpassing the
usual; distinct among others of a kind." Also, Webster's Third New International Dictionary defines
the term "special" as "distinguished by some unusual quality; uncommon; noteworthy."

Based on the above definition, an alien would possess specialized knowledge if it was shown that the
knowledge is different from that generally found in the particular industry. The knowledge need not
be proprietary or unique, but it must be different or uncommon.

The following are provided as general examples of situations where an alien possesses specialized
knowledge.

    •   The foreign company manufactures a product which no other firm manufactures. The alien
        is familiar with the various procedures involved in the manufacture, use, or service of the
        product.

    •   The foreign company manufactures a product which is significantly different from other
        products in the industry. Although there may be similarities between products, the
        knowledge required to sell, manufacture, or service the product is different from the other
        products to the extent that the United States or foreign firm would experience a significance
        interruption of business in order to train a new worker to assume those duties.

    •   The alien beneficiary has knowledge of a foreign firm's business procedures or methods of
        operation to the extent that the United States firm would experience a significant interruption
        of business in order to train a United States worker to assume those duties.



                        Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                      Page 23
A specific example of a situation involving specialized knowledge would be if a foreign firm in the
business of purchasing used automobiles for the purpose of repairing and reselling them, some for
export to the United States, petitions for an alien to come to the United States as a staff officer. The
beneficiary has knowledge of the firm's operational procedures, e.g., knowledge of the expenses the
firm would entail in order to repair the car as well in selling the car. The beneficiary has knowledge
of the firm’s cost structure for various activities which serves as a basis for determining the proper
price to be paid for the vehicle. The beneficiary also has knowledge of various United States
customs laws and EPA regulations in order to determine what modifications must be made to import
the vehicles into the United States. In this case it can be concluded that the alien has advanced
knowledge of the firm's procedures because a substantial amount of time would be required for the
foreign or United States employer to teach another employee the firm's procedures. Although it can
be argued that a good portion of what the beneficiary knows is general knowledge, i.e. customs and
EPA regulations, the combination of the procedures which the beneficiary has knowledge of renders
him essential to the firm. Specifically, the firm would have a difficult time in training another
employee to assume these duties because of the inter-relationship of the beneficiary's general
knowledge with the firm's method of doing business. The beneficiary therefore possesses
specialized knowledge.

Further, Webster's II New Riverside University Dictionary defines the term "advanced" as "highly
developed or complex; at a higher level than others." Also, Webster's Third New International
Dictionary defines the term “advanced” as "beyond the elementary or introductory; greatly
developed beyond the initial stage."

Again, based on the above definition, the alien's knowledge need not be proprietary or unique,
merely advanced. Further, the statute does not require that the advanced knowledge be narrowly
held throughout the company, only that the knowledge be advanced.

The determination of whether an alien possesses specialized knowledge does not involve a test of the
United States labor market. Whether or not there are United States workers available to perform the
duties in the United States is not a relevant factor since the test for specialized knowledge involves
only an examination of the knowledge possessed by the alien, not whether there are similarly
employed United States workers. However, officers adjudicating petitions involving specialized
knowledge must ensure that the knowledge possessed by the beneficiary is not general knowledge
held commonly throughout the industry but that it is truly specialized. There is no requirement in
current legislation that the alien's knowledge be unique, proprietary, or not commonly found in the
United States labor market.

The following are some of the possible characteristics of an alien who possesses specialized
knowledge. They are not all inclusive. The alien:

   •   Possesses knowledge that is valuable to the employer's competitiveness in the market place;

   •   Is qualified to contribute to the United States employer's knowledge of foreign operating
       conditions as a result of special knowledge not generally found in the industry;



                      Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                    Page 24
   •   Has been utilized abroad in a capacity involving significant assignments which have
       enhanced the employer's productivity, competitiveness, image, or financial position;

   •   Possesses knowledge which, normally, can be gained only through prior experience with that
       employer;

   •   Possesses knowledge of a product or process, which cannot be easily transferred or taught to
       another individual.

   •   An alien beneficiary has knowledge of a process or a product, which is of a sophisticated
       nature, although not unique to the foreign firm, which is not generally known in the United
       States.

A specific example of the above is if a firm involved in processing certain shellfish desires to
petition for a beneficiary to work in the United States in order to catch and process the shellfish. The
beneficiary learned the process from his employment from an unrelated firm but has been utilizing
that knowledge for the foreign firm for the past year. However, the knowledge required to process
the shellfish is unknown in the United States. In this instance, the beneficiary possesses specialized
knowledge since his knowledge of processing the shellfish must be considered advanced.

The common theme, which runs through these examples is that the knowledge which the beneficiary
possesses, whether it is knowledge of a process or a product, would be difficult to impart to another
individual without significant economic inconvenience to the United States or foreign firm. The
knowledge is not generally known and is of some complexity.

The above examples and scenarios are presented as general guidelines for officers involved in the
adjudication of petitions involving specialized knowledge. The examples are not all inclusive and
there are many other examples of aliens who possess specialized knowledge, which are not covered
in this memorandum.

From a practical point of view, the mere fact that a petitioner alleges that an alien's knowledge is
somehow different does not, in and of itself, establish that the alien possesses specialized
knowledge. The petitioner bears the burden of establishing through the submission of probative
evidence that the alien's knowledge is uncommon, noteworthy, or distinguished by some unusual
quality and not generally known by practitioners in the alien's field of endeavor. Likewise, a
petitioner's assertion that the alien possesses an advanced level of knowledge of the processes and
procedures of the company must be supported by evidence describing and setting apart that
knowledge from the elementary or basic knowledge possessed by others. It is the weight and type of
evidence, which establishes whether or not the beneficiary possesses specialized knowledge.

In closing, this memorandum is designed solely as a guide. It must be noted that specialized
knowledge can apply to any industry, including service and manufacturing firms, and can involve
any type of position.




                      Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                    Page 25
Appendix D
The Consular Survey


The Consular Survey

With the assistance of the Department of State Bureau of Consular Affairs, a brief questionnaire was
sent to twenty-four embassies and consulates general that are among those that processed the
greatest number of L-1 visa applications. The posts surveyed were:


                      Visa-issuing Post                       Number of L-1 Visa Applications
                                                                        Processed
                                                            Fiscal Year 2004            Fiscal Year 2005
           Chennai, India                                         12,185                      13,222
           London, United Kingdom                                  5,836                       5,903
           New Delhi, India                                        2,574                       5,664
           Mumbai, India                                           3,356                       4,602
           Calcutta, India                                         2,040                       3,146
           Tokyo, Japan                                            2,774                       2,991
           Frankfurt, Germany                                      2,430                       2,468
           Paris, France                                           1,812                       1,854
           Sao Paulo, Brazil                                       1,154                       1,484
           Osaka Kobe, Japan                                       1,306                       1,321
           Seoul, Korea                                              992                       1,204
           Mexico City, Mexico                                     1,235                       1,163
           Manila, Philippines                                       690                         944
           Caracas, Venezuela                                      1,092                         906
           Tel Aviv, Israel                                          780                         863
           Amsterdam, the Netherlands                                794                         835
           Dublin, Ireland                                           781                         773
           Sydney, Australia                                         624                         730
           Beijing, China                                            410                         648
           Buenos Aires, Argentina                                   573                         646
           Shanghai, China                                           500                         635
           Berlin, Germany                                           465                         600
           Kuala Lumpur, Malaysia                                    748                         520
           Johannesburg, South Africa                                557                         502


------------------------------------------------------------------------------------

The survey instrument asked six questions:

1) What experience has post had with abuse of the L-visa?

2) Does the post find many L beneficiaries unqualified? What are the common reasons?

3) What abuse has the post observed by host-country petitioning companies?

                          Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                        Page 26
4) Has the post observed false claims to derivative status? How many cases?

5) Does the post have any anti-fraud checklists, tools, or techniques that are used to screen L cases?

6) The October 2003 issue of Consular Affairs Fraud Prevention Program’s “Fraud Digest” has an
article on L fraud. It states in part that posts can use the Internet and field investigations to verify
questionable L cases. Does post regularly do this? If so, please describe typical activities, and some
of the fraud uncovered?

------------------------------------------------------------------------------------

Half of the posts surveyed indicated in their replies that they typically saw little or even no evidence
of fraud or abuse among the L-1 applications they received. They added that large, well-known
local corporations had submitted almost all the petitions they saw, and that the beneficiaries – the
visa applicants - were in fact managers and executives with several years experience at the
petitioning firms. The other half of the posts surveyed commonly found fraud or potential abuse
among their L-1 cases.




                          Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                        Page 27
Appendix E
Management Response to Draft Report




                       Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                     Page 28
Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                              Page 29
Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                              Page 30
Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                              Page 31
Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                              Page 32
Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                              Page 33
Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                              Page 34
Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                              Page 35
Appendix F
Department of State Response to Draft Report




                        Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                      Page 36
Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                              Page 37
Appendix G
Major Contributors to This Report




                         Douglas Ellice, Chief Inspector, Department of Homeland Security,
                         Office of Inspections and Special Reviews

                         Randall Bibby, Chief Inspector, Department of Homeland Security,
                         Office of Inspections and Special Reviews

                         M. Faizul Islam, Ph.D., Senior Inspector, Department of Homeland Security,
                         Office of Inspections and Special Reviews

                         W. Preston Jacobs, Inspector, Department of Homeland Security,
                         Office of Inspections and Special Reviews




                         Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                       Page 38
Appendix H
Report Distribution




                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Citizenship and Immigration Services, Acting Deputy Director
                      Citizenship and Immigration Services, Audit Liaison
                      Assistant Secretary, Legislative Affairs
                      Assistant Secretary, Policy
                      Assistant Secretary, Public Affairs
                      Chief of Security
                      DHS OIG Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Department of State

                      Assistant Secretary for Consular Affairs
                      Office of Inspector General

                      Congress

                      Appropriate Congressional Oversight and Appropriations Committees




                      Review of Vulnerabilities and Potential Abuses of the L-1 Visa Program
                                                    Page 39
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
